<html>
<title> - LEBANON AND IRAQ PROTESTS: INSIGHTS, IMPLICATIONS, AND OBJECTIVES FOR U.S. POLICY</title>
<body><pre>[Senate Hearing 116-225]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 116-225
 
           LEBANON AND IRAQ PROTESTS: INSIGHTS, IMPLICATIONS, 
                     AND OBJECTIVES FOR U.S. POLICY

=======================================================================

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON NEAR EAST,
                       SOUTH ASIA, CENTRAL ASIA,
                          AND COUNTERTERRORISM

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 4, 2019

                               __________



       Printed for the use of the Committee on Foreign Relations
       
       
       
       
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       



                   Available via the World Wide Web:
                         http://www.govinfo.gov
                         
                         
                         
                            ______                      


             U.S. GOVERNMENT PUBLISHING OFFICE 
40-801 PDF            WASHINGTON : 2020                         
                         
                         


                 COMMITTEE ON FOREIGN RELATIONS        

                JAMES E. RISCH, Idaho, Chairman        
MARCO RUBIO, Florida                 ROBERT MENENDEZ, New Jersey
RON JOHNSON, Wisconsin               BENJAMIN L. CARDIN, Maryland
CORY GARDNER, Colorado               JEANNE SHAHEEN, New Hampshire
MITT ROMNEY, Utah                    CHRISTOPHER A. COONS, Delaware
LINDSEY GRAHAM, South Carolina       TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
JOHN BARRASSO, Wyoming               TIM KAINE, Virginia
ROB PORTMAN, Ohio                    EDWARD J. MARKEY, Massachusetts
RAND PAUL, Kentucky                  JEFF MERKLEY, Oregon
TODD, YOUNG, Indiana                 CORY A. BOOKER, New Jersey
TED CRUZ, Texas


              Christopher M. Socha, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        




             SUBCOMMITTEE ON NEAR EAST, SOUTH ASIA,        
               CENTRAL ASIA, AND COUNTERTERRORISM        

                  MITT ROMNEY, Utah, Chairman        
TED CRUZ, Texas                      CHRISTOPHER MURPHY, Connecticut
LINDSEY GRAHAM, South Carolina       BENJAMIN L. CARDIN, Maryland
CORY GARDNER, Colorado               JEANNE SHAHEEN, New Hampshire
RAND PAUL, Kentucky                  TIM KAINE, Virginia

                              (ii)        

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Romney, Hon. Mitt, U.S. Senator From Utah........................     1


Murphy, Hon. Christopher, U.S. Senator From Connecticut..........     2


Hood, Hon. Joey, Principal Deputy Assistant Secretary, Bureau of 
  Near Eastern Affairs, U.S. Department of State, Washington, DC.     4
    Prepared statement...........................................     5


              Additional Material Submitted for the Record

Responses of Hon. Joey Hood to Questions Submitted by Senator Ted 
  Cruz...........................................................    24


Amer Fakhoury's Legal Team Document Submitted by Senator Jeanne 
  Shaheen........................................................    25


                             (iii)        


 LEBANON AND IRAQ PROTESTS: INSIGHTS, IMPLICATIONS, AND OBJECTIVES FOR 
                              U.S. POLICY

                              ----------                              


                      WEDNESDAY, DECEMBER 4, 2019

Subcommittee on the Near East, South Asia, 
        Central Asia, and Counterterrorism,
                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:40 p.m. in 
room SD-419, Dirksen Senate Office Building, Hon. Mitt Romney, 
chairman of the subcommittee, presiding.
    Present: Senators Romney [presiding], Cruz, Murphy, 
Shaheen, and Kaine.

            OPENING STATEMENT OF HON. MITT ROMNEY, 
                     U.S. SENATOR FROM UTAH

    Senator Romney. The hearing of the Senate Foreign Relations 
on the Near East, South Asia, Central Asia, and 
Counterterrorism will come to order.
    I am going to note in advance that, given the fact that 
there are votes being undertaken right now on the floor, we are 
going to stay here for probably 15 minutes or so, maybe 20 
minutes. Then we are going to run down, I think probably all of 
us. We will take a short break. We will run down and vote on 
two different matters and then come back for the next round.
    The focus of today's hearing is to assess the implications 
of the protest movements in Lebanon and Iraq and understand the 
impact of these on U.S. policy in each of these countries.
    I want to thank our witness, Principal Deputy Assistant 
Secretary of State Joey Hood, for being here today. I note that 
Senator Murphy and I had the pleasure of spending some time 
with Mr. Hood when we were in Iraq in the spring. His 
perspectives and understanding of the region were most 
impressive.
    Both Iraq and Lebanon are geographically significant from a 
regional security perspective. They also face similar 
challenges. They are fragile democracies. They have faltering 
domestic economies, and there are increasing efforts by Iran 
and Iranian-backed groups to gain greater influence over their 
respective governments and civil societies. Both countries are 
currently engaged in protests, with civilians decrying 
corruption, high unemployment, and what they perceive as 
Iranian intervention.
    The current situation in Lebanon poses complex challenges 
for our involvement there. Hezbollah is a terrorist 
organization. Yet, the Iranian-backed group and its allies hold 
seats in parliament. They control ministerial positions. This 
is the same group that bombed the U.S. embassy in Beirut, the 
Marine barracks in 1983, and regularly targets our ally Israel. 
They now control parts of southern Lebanon, as well as 
neighborhoods in Beirut. Lebanon is on the brink of financial 
ruin. People are prohibited from withdrawing more than a few 
hundred dollars a week from their banks. Corruption is rampant. 
Protesters are demanding government resignations and reforms.
    The country will exhaust its currency reserves by February. 
It could face currency devaluation or default on its debt 
obligations if it does not receive foreign funding soon. CEDRE 
has pledged $11 billion in funds to Lebanon, but these funds 
are contingent on government reforms. Prime Minister Hariri 
resigned in October, and President Aoun is now only starting to 
form a new government.
    The U.S. is to provide military aid to the Lebanese armed 
forces, but the administration had previously placed that aid 
on hold. I am glad the aid has now been released. I know that 
the subcommittee will be interested in hearing the reasons for 
the delay in that funding.
    The Iraqi protests are similarly significant, recently 
resulting in the prime minister's resignation. Iraq faces major 
security and economic challenges, among them how to build an 
independent and unified nation, how to sustain an economy, 
whether and how to assimilate returning ISIS fighters, and how 
to counter excessive Iranian influence. What happens there 
matters greatly for our regional security interests, and any 
mention of Iraq must, of course, be accompanied with a 
recognition and honor and respect for the 4,565 American 
service members who gave their lives in that country.
    Mr. Hood, I hope that you can help us have a better 
understanding of the intent of the protest movements and the 
related economic factors and the position the protesters are 
taking regarding Hezbollah and the Iranian-backed militias. I 
would also appreciate your take on the professionalism of the 
Lebanese armed forces and whether it has the support of the 
Lebanese people, whether it can counter Hezbollah, and the 
state of U.S. aid for the Lebanese armed forces. And finally, 
the implications of these situations for U.S. national security 
interests in the Middle East is most interesting and important.
    Increasing instability in both countries would have serious 
repercussions throughout the region, and the U.S. must have an 
effective strategy on how best to partner with these nations to 
support our mutual interests.
    And with that, I will turn the time over to Senator Murphy 
for his remarks.

             STATEMENT OF HON. CHRISTOPHER MURPHY, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Murphy. Thank you very much, Mr. Chairman.
    Mr. Hood, very good to see you again after our visit to 
Baghdad earlier this year.
    Listen, let us face the obvious. Everywhere we look in the 
Middle East today we are seeing easily avoidable mistakes by 
the President and his team that are weakening our allies, 
increasing the threat of attack against the United States, and 
abandoning our allies. To the extent there is a common thread 
to the President's actions in the region, it is a myopic, but 
often counterproductive, focus on Iran. But because of this 
obsession, seeing everything through an Iran prism, the 
administration is missing key opportunities to advance U.S. 
interests in other countries.
    The demonstrations that have gripped Lebanon and Iraq are 
remarkable. These protesters are non-ideological. They are 
multi-ethnic and nonsectarian. So many of the things they are 
demanding of their governments--to be responsive and 
accountable to everyday needs, to tackle rampant corruption, to 
create economic opportunities and public services that work for 
all of their citizens--these are exactly the kind of priorities 
that align with U.S. interests. But at this critical moment of 
change in both countries, the United States is missing the 
opportunity.
    I agree that the United States has got to push back against 
Iranian influence in the Middle East, but we cannot let our 
focus on Iran destabilize other parts of the region, especially 
when it seems like this Iran strategy is not actually working 
in the first place.
    In Lebanon, where I was just a week ago, U.S. policy has 
long been aimed at reducing outside influence in that country. 
Well, over the past couple months, we have seen a lot of 
popular anger on the streets in Lebanon. It is directed against 
political elites and outside actors like Hezbollah. And with 
their political power under threat, Hezbollah is putting thugs 
out to violently attack these nonviolent protesters, 
threatening to plunge the entire country into chaos.
    And yet at this critical moment, the United States is not 
supporting the very actor inside that country, the Lebanese 
armed forces, who have stepped up to defend the peaceful 
protesters. Instead, we withheld U.S. aid just at the moment 
that we should have been supporting them. When I was in Lebanon 
a week ago, no American official could give me a reason as to 
why the aid was held up or what the LAF needed to do to get 
unstuck. And I agree with Senator Romney. We will be seeking 
answers to those questions today.
    We are also missing an opportunity in Iraq. As with 
Lebanon, I am in awe of the courage of these protesters who 
have refused to back down from their peaceful demands even when 
more than 400 people were killed when those demands were met 
with gunfire. Sadly, it seems that security forces in Iraq are 
looking more towards Iran on how to deal with peaceful protests 
rather than where they should be looking towards: the LAF in 
Lebanon. And just as we have seen in Lebanon, much of the 
protesters' anger in Iraq is directed towards the established 
elites, including figures backed by Iran.
    So did the United States seize this opportunity, surging in 
our best and brightest diplomats to try to calm the situation 
and support popular demands for responsive government? No. We 
have largely stayed on the sidelines, hobbled by an 
unjustifiable decision to completely gut our diplomatic corps 
in Iraq.
    Now, I have warned that we were making a disastrous mistake 
by slashing the number of diplomats at the U.S. embassy in 
Baghdad to just 15 people doing principal diplomacy back in 
July. Today the shortsightedness of that decision is painfully 
clear. And yet the administration apparently still thinks that 
somehow we can manage this crisis with a skeleton crew inside 
Baghdad.
    We have a lot to discuss today. I know the decisions that 
are being made that I am critical of are made far above the 
head of our guest, but he is an able, capable, and experienced 
diplomat in the region. I look forward to his testimony.
    Senator Romney. Thank you, Senator Murphy.
    Joey Hood is Principal Deputy Assistant Secretary of State 
for Near Eastern Affairs. He has served as deputy chief of 
mission in Iraq and in Kuwait, as well as counsel general and 
principal officer in Dhahran, Saudi Arabia. Prior to these 
assignments, Mr. Hood was acting director of the Office of 
Iranian Affairs at the U.S. Department of State. Mr. Hood has 
also served in Riyadh, where he coordinated U.S.-Saudi military 
cooperation in Asmara where he was a liaison to rebel leaders 
from Sudan's Darfur region. He has also been assigned to U.S. 
embassies in Yemen and Qatar.
    I look forward to hearing his insights today.
    We will now turn to our witness, Mr. Hood. Thank you for 
your willingness to testify here today. Your full statement 
will be included in the record, without objection. So if you 
could please keep your remarks to no more than 5 minutes or so, 
we would appreciate it so that we can engage in questions and 
vote. With that, thank you, Mr. Hood.

    STATEMENT OF HON. JOEY HOOD, PRINCIPAL DEPUTY ASSISTANT 
 SECRETARY, BUREAU OF NEAR EASTERN AFFAIRS, U.S. DEPARTMENT OF 
                     STATE, WASHINGTON, DC

    Mr. Hood. Thank you, Chairman Romney, Ranking Member 
Murphy, Senator Kaine. Thank you for the kind words, first of 
all. Thank you for the kind words also about me in the Salt 
Lake Tribune back in May. My family appreciated that as well.
    But I am honored to appear before you today to discuss the 
situation in Iraq and Lebanon and the ways in which the United 
States is helping and can help the citizens of those countries 
achieve the stability, security, and economic prosperity that 
their leaders have not delivered.
    People across the region, in particular its youth, wish to 
overcome the economic and political stagnation that has left 
many of them no better off today than they were 10 years ago.
    In Iraq, the demonstrations are also fueled by anger over 
Iran's destabilizing influence. As recently as last weekend, 
Iran's chief exporter of terrorism, Qassem Soleimani, was 
widely reported to have been in Baghdad once again meeting 
with, threatening, and cajoling politicians.
    Iran has exploited the dysfunction not just within the 
Iraqi body politic, but also in Lebanon. Iran supports the 
terrorist group, Hezbollah, and has contributed to the group's 
ability to put its own interests over those of the nation. In 
Iraq, people are demanding an end to Iran's Mafioso tactics 
such as arming terrorist groups like Kata'ib Hezbollah, calling 
the shots among political party bosses, dumping agricultural 
goods on Iraqi markets, and peddling counterfeit or expired 
pharmaceuticals.
    In this context, it is imperative that the United States 
remain, as Secretary Pompeo has said, a force for good across 
the region.
    In stark contrast to Iran, the United States has partnered 
with the Lebanese people through a range of humanitarian, 
economic, and security assistance. Since 2006, we have provided 
more than $2 billion to strengthen the Lebanese armed forces. 
In fiscal year 2018, we obligated and are currently expending 
$115 million in economic support funds to promote employment, 
good governance, and economic growth. Since the start of the 
Syrian crisis, we have also provided over $2.3 billion in 
humanitarian assistance for refugees and the people who host 
them, including food, shelter, water, medical care, education, 
and psychological services. That is what we mean when we say 
America is a force for good in Lebanon.
    In Iraq, we remain a steadfast partner of the Iraqi people. 
With our coalition partners, we continue to ensure that the 
Iraqi security forces can ensure the enduring defeat of ISIS. 
As the country's largest humanitarian donor, we have also 
provided more than $2 billion in food, water, medicine, and 
shelter since 2014 alone. We are also the largest donor to 
stabilization, funding the rehabilitation of more than 500 
schools, 100 health centers, and 50 water treatment plants so 
far. We are also the largest donor to demining, having removed 
thousands of explosive hazards so people can return to their 
homes. That is what we mean when we say we are a force for good 
in Iraq.
    And our relationship with Iraqis remains vital for U.S. 
national interests. Bolstering Iraq as a sovereign, stable, 
united, and democratic partner of the United States with a 
viable Kurdistan region as a component of it continues to be 
our principal objective.
    If we see Iraqi leaders willing to address the demands of 
their people, we will join with the U.N. and others to support 
badly needed electoral and economic reforms. And as Secretary 
Pompeo said recently, we will not hesitate to use tools such as 
designations under the Global Magnitsky Act to sanction 
individuals who are stealing the public wealth of the Iraqi 
people and killing or wounding peaceful protesters.
    The popular protests underway today show that people are 
finally fed up with the damage that corruption causes. We are 
offering to partner with those who want to unlock the potential 
of people across the region because we understand that a 
country is most successful when its people are secure, 
prosperous, and free.
    Thank you for the opportunity to testify today, and I look 
forward to your questions.
    [The prepared statement of Mr. Hood follows:]

                  Prepared Statement of Hon. Joey Hood

    Chairman Romney, Ranking Member Murphy, Members of the Committee: I 
am honored to appear before you today to discuss U.S. policy in several 
Middle Eastern countries in which public demonstrations have erupted 
over citizens' frustrations with their governments all the way from 
Iran to Algeria. Specifically, I look forward to discussing the ways in 
which the United States can help the citizens of Iraq and Lebanon 
achieve the stability, security, and economic prosperity that their 
leaders have not delivered. Allow me to start by identifying two 
threads linking these protests.
    The first lies in the longstanding desire of people across the 
region--in particular among its youth--to overcome the economic and 
political stagnation that has squandered the promise of a better 
future. They have not seen nearly enough investment in expanding 
economic opportunities, leaving many young people no better off today 
than they were 10 years ago. This frustration is compounded by years of 
rampant corruption and political systems that treat government services 
as patronage rather than public obligations. Today's protests over 
these circumstances share a common thread with others in the recent 
past, including the ``you stink'' demonstrations over failed garbage 
collection in Lebanon and protests by Iraqis in Basra during the summer 
of 2018.
    In this context, it is imperative that the United States remain, as 
Secretary Pompeo has said, a force for good across the region. We offer 
a partnership that is unmatched. It reflects our values. It also 
supports the region's security and stability. Our help can provide the 
people of the region the security and stability they need to face 
challenges with a modern vision anchored in universal rights and 
fundamental freedoms.
    In Iraq, it is also of note that the demonstrations are fueled by 
anger arising from the results of Iran's destabilizing influence. As 
recently as this weekend, Iran's IRGC-QF (or IRGC-Qod Force) commander, 
Qassem Soleimani, who remains under a U.N. Security Council travel ban, 
was widely reported to have been in Baghdad once again meeting with, 
threatening, and cajoling politicians. This is just the type of 
unacceptable interference Iraqis are protesting in the streets.
    Both Iraq and Lebanon have systems of government that are largely 
formed along sectarian lines, fomenting corruption to maintain 
influence, and inviting in external backers. Iran has exploited the 
dysfunction within both systems, exacerbating the fault lines in each. 
In Lebanon, Iran's support to the terrorist group Hezbollah has 
contributed to the group's ability to exert domestic influence and put 
its own interests over those of the nation., leaving the Lebanese 
people on the losing end. In Iraq, people are demanding an end to 
Iran's mafioso rules, such as arming terrorist groups like Kata'ib 
Hezbollah, calling the shots among political party bosses, dumping 
agricultural goods on Iraqi markets, and peddling counterfeit or 
expired pharmaceuticals. Allow me to address the situations in both 
countries in greater detail.
    For almost 2 months, Lebanon has experienced an unprecedented 
popular movement led by ordinary citizens fed up with corruption and 
ineffective political leaders that have too often put their own 
interests over their own people. In a country known for its multi-
religious character, these protests have been unparalleled in their 
national character and the way that Lebanese citizens--across the 
nation, across sects, and across socio-economic levels--have become 
involved. While the demonstrations were at first triggered by an absurd 
proposed tax on voice-over-internet-protocol calls (such as WhatsApp), 
it became clear within hours that the tax was just the final straw. 
Even after the proposal was withdrawn and Prime Minister Saad Hariri 
announced a package of economic reforms 4 days later, protesters, 
skeptical of more empty promises from the very political leaders who 
failed to deliver for years, remained on the streets and demanded the 
resignation of his government. Hariri stepped down on October 29, and 
since then declared that he would return only if he could lead a 
cabinet of experienced, non-political individuals (often referred to as 
``technocrats'') as the protesters were demanding. Hezbollah and its 
political partners refused, and last week the former prime minister 
announced he would not seek another term.
    Since Hariri's resignation, the government has been in caretaker 
status, which means it has limited power and cannot pass any of the 
reforms Lebanon desperately needs to stabilize the economy. The last 
time Lebanon's political leadership had to form a government it took 
them 9 months. We do not believe the Lebanese people want another 
drawn-out contest over political spoils. As each day ticks by, the 
delays demonstrate a determination by the country's political elite, 
especially the sectarian leaders behind most of the political parties, 
to protect their own interests and not to serve the interests of the 
Lebanese people.
    We have repeatedly urged Lebanon's political leaders to respond to 
their people's demands for a properly functioning country through 
immediate reforms. We are working with key allies and the international 
community to discuss how we would assist with these reforms to avert a 
full-blown economic crisis and create the conditions for economic 
recovery. Until the sectarian leaders that fuel the political parties 
support real and immediate reforms, Lebanon will go nowhere, whether it 
has a new government or not.
    The United States supports the rights of the brave men and women of 
Lebanon to meet on their streets and squares to express themselves 
through peaceful demonstrations without fear of retribution or 
violence. However, the ability to do that is under constant threat. 
Over the last 2 months, the Lebanese Armed Forces (LAF) and Internal 
Security Forces (ISF) have stepped in to protect protesters from thugs 
threatening and using violence in an effort to send them home. For 
example, on November 24, Hezbollah and Amal partisans confronted 
peaceful protesters with violence and sectarian slogans, trying to prod 
them with old resentments into a new clash that would undermine their 
demands. Intervention by security personnel stopped the situation from 
escalating before dispersing both groups with tear gas. None were 
injured that day, but the pressure from these politically motivated 
groups to either get protesters off the streets or undermine their 
demands with an appeal to divisive sectarianism remains a significant 
threat.
    The United States also remains concerned about the role being 
played by Hezbollah, and its benefactor Iran. During these protests, 
Hezbollah, with some echoes from Russia, has tried to blame the United 
States for instigating the protests. Those efforts have fallen short. 
Protesters in Lebanon know they are not the puppets of external 
influence. As noted in our statement on November 18, ``the popular 
demonstrations we have witnessed over the past weeks in Lebanon have 
clearly shown that it is the Lebanese people that are working together 
to hold their leaders to account. Any argument to the contrary is 
frankly insulting to their perseverance and determination to work 
towards a brighter future.''
    In stark contrast to Iran and Russia, the United States has 
partnered with the Lebanese people through a range of humanitarian, 
economic, and security assistance. Since 2006, we have provided more 
than $2 billion to help strengthen the Lebanese Armed Forces. In FY 
2018, we obligated, and are currently expending, $115 million in 
Economic Support Funds for initiatives in Lebanon that promote 
employment, good governance, social cohesion, and economic growth. Our 
projects also improve access to clean water and education, especially 
in areas heavily impacted by the influx of Syrian refugees. Since the 
start of the Syrian crisis, the United States has also provided over 
$2.3 billion in humanitarian assistance for refugees in Lebanon, as 
well as the Lebanese communities that host them, including food, 
shelter, water, medical care, education, and psychological services. 
This is what we mean when we say America is a force for good in 
Lebanon.
    In Iraq, where I was privileged to serve for 2 years as the Deputy 
Chief of Mission and Charge d'Affaires, the demonstrations that swept 
Baghdad and the southern provinces in the last 2 months have exposed 
growing revulsion for Iraq's political elite by the rest of the 
population. Although exact numbers are debated, it is clear that 
hundreds of Iraqis have been killed and as many as 20,000 injured so 
far. What began as a wave of primarily Iraqi youth demanding the 
elimination of corruption and greater economic opportunity has 
transformed into a broader societal movement, with demonstrators 
spanning religious sect, gender, occupation, and generational lines. 
Like in Lebanon, these protests arose from popular discontent with 
endemic corruption and mismanagement, high unemployment, and poor 
delivery of basic services. The demonstrators want better from their 
leaders.
    Not surprisingly, an important element of this movement has been 
rejection of Iran's corrupting influence, including anger at Iranian-
supported political parties and armed groups. Iraqis increasingly view 
Iran as having coopted and exploited Iraq's political system, its 
economy, and its security at the expense of the Iraqi people, and this 
has clearly made Iran nervous. Thus far, Iran's public attempts to spin 
the narrative have been met with immediate scorn and mockery, and 
further lowering the regime's standing with the Iraqi people. At the 
same time, many protesters have rejected being painted as tools of 
American influence.
    Although many protesters are too young to remember Saddam's 
tyranny, most are intimately familiar with the shortcomings of 
political elites that many believe the United States is responsible for 
bringing to power. We must acknowledge and respect the fact that what 
is occurring in Iraq is indigenous to it and reflects its citizens' 
needs and desires.
    Like in Lebanon, we have called for the government to respect 
Iraqis' freedom of expression and peaceful assembly. Their voices 
should be heard without fear of retribution or violence. We are deeply 
concerned by the killing, kidnapping and intimidation of protesters and 
civil rights leaders and have demanded that the government protect them 
and lift restrictions on all forms of media. We are working with our 
allies to echo this message, and we welcome efforts by the U.N. 
Assistance Mission for Iraq (UNAMI) to assist with electoral reform, in 
accordance with its U.N. Security Council mandate.
    As Secretary Pompeo has said, the United States welcomes any 
serious efforts to address the protesters' demands. But like in 
Lebanon, nothing will change until political leaders decide that 
government agencies should provide public services rather than serve as 
ATM machines for their parties. Until that happens, the people's 
demands for a clean and effective government will not be met, no matter 
who serves as Prime Minister or in Cabinet positions.
    Meanwhile, we will remain a steadfast partner of the Iraqi people. 
With our International Coalition partners, we will continue to ensure 
that the Iraqi Security Forces can ensure the enduring defeat of ISIS, 
which just 3 years ago occupied a third of the country. We will remain 
the country's largest humanitarian donor. Since 2014 alone, we have 
provided more than $2 billion in food, water, medicine, and shelter. We 
are the largest donor to stabilization, as well, rebuilding more than 
500 schools, 100 health centers, and 50 water treatment plants, with 
many more projects coming soon. We are the largest donor to demining, 
having removed thousands of explosives hazards so people can return to 
their homes. This is what we mean when we say we are a force for good 
in Iraq.
    Our relationship with Iraqis remains vital for U.S. national 
security interests and regional security, and bolstering Iraq as a 
sovereign, stable, united, and democratic partner of the United States, 
with a viable Kurdistan Region as a component of it, continues to be 
our principal objective.
    If we see Iraqi leaders willing to address the demands of their 
people, we will join with UNAMI and others to support badly needed 
electoral and economic reforms. Whether we have partners among Iraqi 
leaders or not, Secretary Pompeo has said, we will not hesitate to use 
all the tools at our disposal, including designations under the Global 
Magnitsky Act, to sanction corrupt individuals who are stealing the 
public wealth of the Iraqi people and those killing and wounding 
peaceful protesters.
    Together, the popular protests in Lebanon and Iraq show that people 
are finally fed up with the damage that corruption does to government's 
willingness and ability to provide the basic services that people need 
to live and thrive. In stark contrast to Iran, which uses corruption to 
create openings to extend its influence, we are offering a positive 
vision, a force for good willing to partner with those who want to 
unlock the potential of people across the region. We understand that a 
country is most successful when its people are secure, free, and 
prosperous.
    We are committed to a vision of shared prosperity, regional and 
global security and stability, and lasting partnership with the people 
of Lebanon and Iraq.
    Thank you for this opportunity to testify today, and I look forward 
to your questions.

    Senator Romney. Thank you, Mr. Hood.
    Now we will turn to questions. A couple of things. First of 
all, as we look at the protests that are going on, surely the 
state of the economy is one of the reasons for the anger on the 
part of, particularly, so many of the young protesters. That 
economy has been buffeted by the decline in tourism, by the 
fact that Syria next door is in turmoil. And apparently 
remittances from Lebanese workers working in Saudi Arabia or 
other places throughout the Middle East have declined 
precipitously.
    Is there a realistic prospect of economic vitality that 
will meet the demands of these protesters?
    Mr. Hood. Yes, Senator, in a word. Lebanon is capable of 
much better economic performance. But we need to see major 
reforms. Some of these are quite simple. It is about literally 
picking up the trash. You were Governor of Massachusetts. You 
understand better than most probably what kind of services a 
government has to provide to meet the basic needs of its 
citizens. And it is just not happening in Lebanon. You will 
recall a couple of years ago maybe the ``You Stink'' protests 
over the trash collection problem. Some of these are basic 
fixes. They are not difficult to do. But the leaders have to be 
committed to that. And if they are not committed to basic and 
wide-ranging reform, then it does not really matter what faces 
they put in the government. It will be like rearranging the 
deck chairs on the Titanic. So that is what we are pushing for, 
is real reform.
    Senator Romney. What kind of confidence do you have in the 
new leadership that is in Lebanon, and is there a capacity to 
really form a new government based upon your perspective?
    Mr. Hood. Right now there is not a new government. They are 
still in the caretaker mode. The president only just today I 
saw as I was coming in here called for binding negotiations 
between the parties for formation of a new government. There is 
no telling how long that is going to take. The last time they 
formed a government, it was 9 months. One would hope that with 
the pressure from the street they will have gotten the message 
that they need to act quickly and they need to act seriously on 
reform. And if they do--you mentioned in your opening remarks, 
Senator, that they have CEDRE funding of over $11 billion 
waiting to help, but there is no Western country that is going 
to jump in there and say we are going to bail you out this time 
once again even though you have not gotten the message from 
your people and even though you have not committed to reform.
    Senator Romney. As you know, Congress appropriated $105 
million to support LAF and their effort there. Why was that 
held up?
    Mr. Hood. Senator, I cannot get into the internal 
deliberations. It is true that bureaucratic processes often 
work more slowly than we would like them to. I am daily 
frustrated with that myself. But what I can say is that no 
delivery of materiel, no assistance was delayed or prevented 
from going to the LAF because of these internal deliberations. 
The money has been approved for expenditure, and now we are in 
the process of what you normally do for FMF funding: letters of 
requests, letters of offer and assurance, and so forth.
    Senator Romney. Are you saying that the delay was due to 
bureaucratic processes as opposed to policymaking from the 
highest levels of our government?
    Mr. Hood. Yes, sir, internal deliberations, policy 
deliberations that often accompany big decisions like this.
    Senator Romney. I am told that we have about a minute--
excuse me--about 4 minutes. So I am going to turn to Senator 
Kaine and let him ask some questions because I am going to be 
coming back.
    Senator Kaine. Thank you, Mr. Chair, and thank you, Senator 
Murphy.
    Just on that, so I get we are not asking about internal 
deliberations, but the funding was mandated by Congress.
    Mr. Hood. Yes, sir.
    Senator Kaine. We are appropriators and we put it into an 
appropriations bill, and the President signed it. And so I 
think we are entitled to know the reason why it was held up. 
Internal deliberations are, what were the discussions of the 
pros and cons and the backs and forths. I am not interested in 
any of that. I want to know, was there a decision that was made 
in the White House to withhold these funds?
    Mr. Hood. Sir, I would refer you to the White House for 
what White House thinking is. But in terms of----
    Senator Kaine. Let me ask you it this way. Are you aware of 
whether there was a decision at the White House to withhold the 
funds?
    Mr. Hood. I am not aware of that decision. What I am aware 
of is that there was lots of robust discussion about this 
before I arrived in my job and afterwards.
    Senator Kaine. Was the discussion about whether we would 
ignore Congress? Or what was the discussion about?
    Mr. Hood. No, sir.
    Senator Kaine. So when Congress mandates it, what is the 
deliberation past that point?
    Mr. Hood. We need to make sure that what we are providing 
and how we are providing it is not only in line with 
congressional appropriations but also with the best stewardship 
of taxpayer money.
    Senator Kaine. Were there concerns about Lebanon's 
stewardship of these dollars, and what were those concerns?
    Mr. Hood. Senator, that is one of the things that we always 
deliberate before we undertake assistance programs. We need to 
make sure that military units, for example----
    Senator Kaine. But in this particular case, you are saying 
that one of the reasons for the delay was particular concerns 
about the LAF and their use of these funds?
    Mr. Hood. No, sir. I do not want my comments to be 
construed that way. It is just that in general when we talk 
about providing assistance to any other country, we have all 
sorts of discussions about making sure that----
    Senator Kaine. Do you know whether the timing of the 
release of the funds was dictated by the State Department or by 
the White House or by the DOD?
    Mr. Hood. Sir, that is internal deliberations that I cannot 
get into, unfortunately.
    Senator Kaine. So you know the answer to the question, but 
you do not want to testify to it?
    Mr. Hood. I would not say that either, but I cannot get 
into the internal deliberations of how we are making the 
sausage on this or any other particular decision.
    Senator Kaine. Yes. Again, I am going to ask it for the 
record, too, because we are not asking you about internal 
deliberations of something that is on your side of the aisle. 
When we specify that the dollars shall be spent in this way, 
and then we have to find out in the newspaper that the 
administration is withholding the dollars against our mandate, 
you can understand the concern that we have.
    One other question. You talked about the administration's 
willingness to use the Global Magnitsky Act, and you have used 
it in some instances. But this committee sent a letter to the 
administration about the Global Magnitsky Act and the Crown 
Prince in Saudi Arabia with respect to the murder of Virginia 
resident, Washington Post journalist Jamal Khashoggi. The 
administration refused to answer the question that the Global 
Magnitsky Act requires: was this individual culpable in a human 
rights violation? Do you have any knowledge about why the 
administration refused to answer the question that the Global 
Magnitsky Act required an answer for?
    Mr. Hood. Well, Senator, we certainly share your concerns 
over that horrible murder. But I do not have a specific answer 
for you on that today. I can assure you that we have held 
accountable more than 100 people so far in that----
    Senator Kaine. Do you know whether there are any ongoing 
efforts still to determine whether the Crown Prince was 
culpable in the murder of Jamal Khashoggi? Is that matter a 
closed matter as far as the State Department is concerned?
    Mr. Hood. As far as I know, Senator, we are not holding any 
individual outside the scope of who we would hold accountable 
for this.
    Senator Kaine. Thank you, Mr. Chair.
    Senator Romney. We are going to take a break right now. We 
will be back in approximately 10 minutes. So it is a 10-minute 
break. Thank you.
    [Recess.]
    Senator Romney. Mr. Hood, thank you for remaining here. We 
are back in session and I am going to turn to Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman.
    Let me just, if I could, complete the series of questions 
you were getting from Senator Kaine about the rationale for the 
hold. As you know, the reason that we are concerned and 
inquiring about the hold on funding for the Lebanese military 
is that it had an impact. It is true that the aid is now 
flowing, but remember, we are outside the bounds of the fiscal 
year. We are in the next fiscal year and we are operating on a 
continuing resolution. But we went effectively into overtime 
before this funding was released, and people on the ground in 
Lebanon noticed. It had an impact even though the funding was 
eventually released because, at the very moment that the LAF 
was literally standing in between peaceful protesters and 
Hezbollah, there were stories circulating in the press about 
the fact that the United States was perhaps going to walk away 
from our funding commitment to them at the very moment that 
they were advertising to the world how different they were than 
the other militaries in the region.
    So I hope the administration knows that when it holds 
funding, whether it be for policy reasons, which I think we can 
agree are not allowable if those policies are not articulated 
in the statute or for bureaucratic reasons, it has an effect.
    But let me just get back to that fine point. I mean, you 
would agree that the administration cannot attach conditions to 
funding, policy conditions to funding that are not in the 
underlying statute. I understand what you said. You need to 
make sure that the money is going to the right place, but it is 
Congress that decides whether there are going to be policy 
conditions on funding, whether it be to Lebanon or any other 
country. Is that not correct?
    Mr. Hood. Thank you, Senator.
    Yes. We have not attached any policy conditions on this 
funding and no expenditures or deliveries or purchases of 
military materiel were delayed. So we explained to Lebanese 
officials that this was just part of our internal process. We 
remain committed to our longstanding partnership with them. As 
I said earlier, no one working in the bureaucracy is happy with 
the speed at which we do things, but, in this case, the delay 
was not related to anything having to do with the protests. The 
Lebanese armed forces, as you said, have shown themselves to be 
a model for security forces in region with how well they have 
done to protect the peaceful protesters and how few incidents 
they have been involved in that have to be followed up on. We 
believe strongly that strengthening the capacity of the LAF is 
critical to securing Lebanon's borders, defending its 
sovereignty, and preserving its stability. And so that is why 
we all made sure as an interagency that nothing was delayed, no 
expenditures, no purchases, no deliveries. And as I said, the 
funding has been approved.
    Senator Murphy. So thank you for that statement in support 
of our continued partnership and training with the LAF. You 
would agree that they have made remarkable progress over the 
course of the last decade in improving their ability to provide 
security for the people of Lebanon and securing the borders, 
something that was not done by the Lebanese military only a 
short time ago. You would assess that they have made tremendous 
progress in terms of professionalization and capability.
    Mr. Hood. That is right, Senator, largely due to our 
assistance. Just a little over a decade ago, it was the Syrian 
military that was on the borders of Lebanon. Now it is the 
Lebanese armed forces. We have not seen a substantial ISIS 
presence in Lebanon even though there was one directly over the 
border because of the professionalism and the capability of the 
Lebanese armed forces. They have coordinated with us on a 
number of counterterrorism operations that have taken down a 
number of plots that were not able to see their way to 
fruition. And as I pointed out again earlier--and it bears 
emphasizing--their role in protecting the peaceful protesters 
from Hezbollah thugs and Amal thugs has been absolutely 
extraordinary.
    Senator Murphy. And last question on this topic. What would 
be the impact if the capabilities of the LAF were severely 
curtailed? Hezbollah's claim is that they are the only 
legitimate defender of the people of Lebanon, and every day and 
week that the LAF becomes more capable of defending the 
country, my impression is that it is a blow to Hezbollah's 
arguments that only they can be trusted with defending the 
security of that nation. My impression, especially having spent 
some time on the ground there, is that if the LAF is weakened, 
then it accrues to the benefit of Hezbollah. They seem to be 
the counterweight.
    Mr. Hood. You have got it absolutely right, Senator. Let us 
enter your remarks as my answer to your remarks.
    No. You are exactly right. And you see people out in the 
streets right now who are starting to say, well, look, we do 
have a pretty good army. We do have a nonsectarian, non-
ideological, pan-Lebanese institution that is doing a really 
good job defending us and our rights to raise our voices. And 
so the more that that happens, the less legitimate are 
Hezbollah's arguments for having their own armed force right 
alongside the legitimate institutions of the state.
    Senator Murphy. Let me turn to Iraq. What level of detail 
can you provide to the committee about the drawdown of 
diplomatic presence in Baghdad? The reports that I stated at 
the outset suggest that there are perhaps six USAID staffers 
and maybe over a dozen diplomats. What is our diplomatic and 
USAID presence today in Baghdad, and how does that compare to 
what it was perhaps when you showed up on the ground there 
several years ago?
    Mr. Hood. Sir, primarily for security reasons, we do not 
get into discussions of specific numbers. But I have personally 
come up and briefed staff members of the SFRC and the SASC 
folk, and I would be willing to do so again in as much detail 
as they would like.
    But we believe that the numbers that we have now are 
exactly what we need, no more or no less, to get the mission 
accomplished. And that is something that we worked, and I 
personally worked very hard on before I left, to get those 
numbers right. We are always reviewing our numbers, weighing 
security risks, weighing what the mission is before us in every 
high threat post, but especially in Iraq. But to emphasize 
again, we believe that we have got exactly the right number 
there that we need to get the mission done. And they are doing 
a tremendous job under Ambassador Tueller's leadership, having 
lots and lots of meetings with Iraqis from across the spectrum, 
including those in Tahrir Square, and they are sending lots of 
good reporting back to us.
    I would like to welcome my Senator, Senator Shaheen.
    Senator Murphy. Okay. So I will take your reservation for 
sharing numbers with us in open session. But as you know, Iraq 
has always been a very dangerous post, and we are so thankful 
for both the military and diplomatic personnel who are willing 
to put their lives at risk by serving in a place where you are 
constantly under threat of attack. But it is a little hard to 
sort of accept as the rationale for the drawdown the security 
risk given the fact that I think we can all agree that the 
security risk was probably much higher during a time in which 
we were in active combat in large parts of the country and 
large parts of the capital city. And yet we managed to have 
thousands of personnel there. And maybe it is coincidental that 
the political and security situation has unraveled in Iraq at 
the exact same moment that our diplomatic drawdown has 
happened, but maybe it is not. Maybe the fact that we do not 
have the personnel there that we used to in order to go out and 
try to convince our friends to make the right decisions when 
encountering difficulty is in fact correlated.
    And so, again, I understand you cannot share with us the 
intel on the security threats, but is it not true that Iraq has 
always been a place where there was threat of attack against 
diplomatic personnel and we were able to manage that threat 
because we thought it was so important to have hundreds of 
diplomats rather than a handful of diplomats? If we could do it 
in 2006 and 2007, why can we not manage that security risk 
today?
    Mr. Hood. Well, Senator, a few points on that. Compared to 
2006 and 2007, we had probably 150,000 American troops in the 
country, which is a very different story than today. We, from 
time to time, review our numbers and our capabilities and our 
mission set in front of us, and that is what we did in Iraq. 
And we believe that we have got the right mix of people there 
now.
    I would invite you to visit again. I know all three of you 
on the committee right now have been out there this year, and I 
think it is just invaluable to have you out there to help brief 
you on these things in detail. I can say the Ambassador and his 
team are as active as ever. They are just making even more 
meetings than ever before and having just as much an impact as 
ever before. So I think that their capability is there, and if 
he were to ask us for more capabilities in this area or that 
area, we certainly would not be in a position to say no.
    Senator Murphy. Well, let me just submit that I disagree 
with you. I do not think you can cover the panoply of threats 
in that country presented to us and to our allies with the 
numbers that you have. I do think there is a correlation 
between the two.
    And the last comment I will make before turning it over is 
that I accept your invitation. I thank you for how hard you 
worked to make Senator Romney's and my visit productive. But I 
will also say it has never been harder than today for Members 
of the Senate or Congress to visit Iraq. This administration is 
making it very difficult for Members to get there and do the 
kind of oversight that we would like. When we were there, we 
were able to see our diplomatic personnel, but we were not able 
to go and visit our military personnel. And I have heard from 
other Members expressing the same frustration with our ability 
to see how our taxpayer dollars are being spent there. And, 
again, I am speaking above your pay grade, but I just think it 
is important to state for the record that many Members of the 
Congress would like to be there, would like to accept that 
invitation but find it often hard to do so given some of the 
constraints. But I appreciate the invitation.
    Senator Romney. Thank you.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    And, Mr. Hood, it is very nice to have you here. Thank you 
for your service and for being such a great host when Senator 
Reed and I visited Iraq and Senator Jones. And we are very 
proud of your service in New Hampshire and are glad you are 
where you are.
    I appreciate your pointing out in your opening remarks the 
situation of Amer Fakhoury who, as you know, is a constituent 
of mine from New Hampshire and an American citizen who has been 
illegally detained in Lebanon since September the 12th. He is 
currently hospitalized and is in very serious medical 
condition.
    Would you agree that a country or official that imprisons 
an innocent individual without charge for months on end and 
does not allow the prisoner any appropriate due process to 
prove their innocence is committing a human rights violation?
    Mr. Hood. Thank you for the question, Senator Shaheen.
    We have no higher calling than to protect American citizens 
living and traveling overseas. Every day the U.S. embassy team 
in Beirut is working very hard to secure the release of the 
unjustly detained Amer Fakhoury. They last visited him just 
today and gave me a report that I will share with you, if we 
have time, afterwards. And I spoke with Ambassador Richard as 
well on the phone earlier today. She follows the case daily in 
a very personal way.
    Anyone in New Hampshire's seacoast region who loves Middle 
Eastern food, as I do, is a fan of Little Lebanon To-Go, and I 
know that Mr. Fakhoury's customers miss him. His family misses 
him. And we hope to see him come home very, very soon.
    You are absolutely right that there are grave concerns 
about the process and the way he is being treated, but we are 
making this our absolute highest priority at the embassy and 
here at the State Department.
    Senator Shaheen. Well, thank you. I appreciate that. And I 
very much appreciate all the assistance from Ambassador 
Richard. And I have spoken with Deputy Secretary Sullivan. I 
know that at the highest levels of our State Department people 
have been concerned about Mr. Fakhoury. I believe that if he 
dies in the custody of Lebanese officials, that Lebanon should 
be subject to sanctions under section 703(1)(c) of the State 
Department and Foreign Operations Act, which states--and I 
quote--``any officials of foreign governments and their 
immediate family members about whom the Secretary of State has 
credible information have been involved in a gross violation of 
human rights shall be ineligible for entry into the United 
States.'' I think this is a very serious situation that has not 
been taken seriously by the officials of the Lebanese 
Government, and they need to be on notice that we are looking 
very carefully and closely at what they are doing.
    Mr. Chairman, I would like to enter into the record 
documents that have been provided by Mr. Fakhoury's lawyer that 
clearly indicate that he is not the individual that the 
Lebanese and Hezbollah-linked papers allege him to be.
    [The information referred to follows:]

    [The information referred to above is located at the end of 
the hearing.]

    Senator Shaheen. Mr. Hood, I look forward to working with 
you, with Ambassador Richard, with Secretary Pompeo and 
continuing to do everything we can to ensure that Mr. Fakhoury 
gets back home. Again, I think his health is very critical, and 
we do not want a situation where he dies in Lebanese custody. 
That would not be good obviously for Lebanon, for the United 
States, and it would be a tragedy for Mr. Fakhoury and his 
family.
    Mr. Hood. Hear, hear.
    Senator Shaheen. Mr. Chairman, so I want to go to some of 
the other concerns that Lebanon is confronting right now with 
unrest because one of the things that I think we are seeing is 
that Hezbollah and Iran view the protests in Lebanon as a 
threat to their influence within the country, and the reports 
that I have seen suggest that the Lebanese people are very 
concerned about what Hezbollah is doing there and the continued 
corruption that they are seeing in the country, and that there 
will be efforts on the part of Hezbollah to influence any new 
cabinet and government that is formed.
    So can you talk about what we are doing to try to address 
the Iranian and Hezbollah influence in Lebanon as they look to 
form a new government?
    Mr. Hood. Well, Senator, as I said in my opening statement, 
we view Iran's role in both of these countries as very 
unhelpful, and the people agree with that assessment. We think 
one of the major ways that we can try to diminish that is 
through our maximum pressure campaign, which is denying the 
regime in Tehran the revenues that it used to have to fund 
groups like Hezbollah and Kata'ib Hezballah and the Houthis and 
others. For the first time ever recently, Hassan Nasrallah had 
to go on TV and do a telethon to try to get donations for 
Hezbollah. That is a sign that the decreasing revenues in 
Tehran are having an effect on his funding. And that is, I 
think, a very appropriate use of the power of our financial 
system, the power of our sanctions.
    We are also using our bully pulpit. We are calling out this 
activity, and we are naming and shaming. We are using the 
legislative authorities that we have to sanction individuals. 
Something like more than 1,000 individuals and organizations 
just in the past couple of years we have sanctioned with regard 
to Iran and its malign activities throughout the region.
    So this is obviously having an effect on the pocketbook, 
and the people themselves are standing up and saying, you know, 
I know how life looks on the outside. I know what people in the 
United Arab Emirates live like, for example. I do not have to 
live like this. I do not have to live under this sort of 
condition. And I think they are gaining inspiration as well 
from each other and from the protests in Iran, which we have 
not talked about but which have been just as terrible in terms 
of their repression and possibly more. We cannot know exactly 
how many people have been killed there because of the 
throttling of the Internet and the regime keeping such a 
blackout, but it is clear that it is bad what is going on 
there.
    Senator Shaheen. Well, I am glad that you mentioned that 
because, again, the news reports suggest that these are the 
worst protests in Iran since 1979 and that close to 800 people, 
that we know about, have been killed by the regime.
    Are there ways in which we can try and address the Iranian 
people who are being repressed such that they understand that 
there is an interest in seeing that they have some 
opportunities in the future to ultimately get out from under 
the current leadership?
    Mr. Hood. Absolutely, Senator. The Secretary, the President 
have been very clear in standing with the Iranian people who 
are, we should not forget, the longest suffering victims of 
this regime. We are committed to promoting accountability. I 
have talked about the sanctions that we have levied. We will 
continue to make public statements not just from our own podium 
but from cooperation in U.N. forums to strengthen the 
international community's resolve.
    And we do see that, whatever our disagreements may be on 
policy approaches, the Europeans are taking some similar steps. 
Denmark and France and the Netherlands went to the European 
Union to get sanctions levied on the Iranians for assassination 
plots that had taken place in their countries. France, Germany, 
and Britain came out and condemned the September 14th missile 
attacks on Saudi Arabia.
    So we have to be careful not to try to portray these 
protests as pro-American. I think they are pro-Iranian. They 
are nationalists. They want to be living like normal people. 
And we hold out a great hope as a force for good, as I talked 
about earlier, for countries like Iran, Iraq, Lebanon. We have 
got a $22 trillion economy. We have got a lot of private 
investment that could go forward. We have got a lot of programs 
and assistance that we could provide if they are just ready to 
start acting like a normal government again. And that is the 
hope that we hold out.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman.
    Senator Romney. Thank you, Senator.
    I am going to ask a couple of questions. Then I am going to 
leave and Senator Murphy is going to ask questions, and then he 
is going to gavel us out. He may never gavel you out, but we 
will see.
    A couple of things. Turning to Iraq and the protests there, 
what is the administration's posture with regards to the 
protesters in Iraq? Are we supportive of their effort? Are we 
helping the protesters? Are we opposed to the protesters? Or 
exactly what is our posture with regards to what is happening 
in Iraq?
    And I say that because, when we there with you some months 
ago, there was a perspective that given energy shortages and 
likely power blackouts, that there would be protests during the 
summer. But I do not think there was any indication at that 
time that protests would be going on through November, that 
hundreds of people would be killed, and that there was no end 
in sight to these protests. So it has, obviously, taken on a 
different character than what we were thinking about, or at 
least the Government of Iraq was thinking about, when we were 
there.
    What is your perspective, and what is the impetus for these 
protests? And what is our national policy with regards to them?
    Mr. Hood. Well, Senator, we absolutely support the 
protesters' right to peacefully demonstrate and express 
themselves. We also strongly support and have talked about this 
many times at the highest levels from Secretary Pompeo on down.
    We think that they have a right to free media. As you may 
have seen, the government shut down nine television stations 
last week. There have been mysterious third parties that have 
raided media headquarters and that have harassed reporters and 
other journalists. And we are calling this out at every 
opportunity.
    We again, like in Lebanon, have to be careful not to 
portray these protesters as pro-American because they do not 
want to be. They want to be seen as Iraqis first and foremost. 
So we extend to them this offer of being a force for good, a 
partnership with leaders that they want to see, we think, just 
like we do in putting in place reforms that would allow the 
economy to open up and grow and for people to get meaningful 
jobs and for the government to just do its job providing 
services.
    So we have been calling for all of this at the highest 
levels, making it clear to them that we support their 
legitimate rights and calling out the government and 
individuals, both privately and publicly, when we see that they 
are not holding up those rights. We will hold accountable those 
individuals over time as we find out who is responsible for 
killing and wounding the protesters, and we will continue to do 
that. But we do hope that soon we will get partners in the 
Iraqi Government, throughout the Iraqi Government, that are 
willing to work with us on real reform.
    Senator Romney. There are some conflicting reports about 
who it is that has been killing protesters. Some have indicated 
that perhaps Iranian sharp shooters have done so. Others, of 
course, point to the Iraqi military itself. Do you have any 
perspective on who might be responsible at this stage for the 
hundreds of deaths that have been reported?
    Mr. Hood. Yes, sir, and no, sir. Yes, in the sense that 
there have been Iraqi military leaders and units implicated, 
such as in the deaths of upwards of 40 people in Nasiriya last 
weekend. That general, as I understand it, has been arrested 
and brought up on charges.
    But there are many other cases where it is not entirely 
clear who is doing what. Some of the Iranian-supported proxies 
in Iraq are very good at hiding their affiliations. You see 
them in black uniforms with no insignia in the videos. But 
Secretary Pompeo and Special Representative Hook have called 
for Iraqis to share with us the videos and pictures that they 
have so that we can go through those, and we can try to help 
identify those people and hold them accountable even if Iraqi 
Government leaders now or in the future do not want to.
    Senator Romney. Thank you. I am going to ask Senator Cruz 
to take over and ask any questions he might have. I need to go 
vote, and I hope to see you again soon.
    Mr. Hood. I hope you will be back, Senator.
    Senator Cruz [presiding]. Well, thank you, Mr. Hood, and 
thank you for your testimony. Thank you for being here.
    Let us start by talking about Lebanon. Over the past 
decade, the United States has spent over $2 billion in aid to 
the Government of Lebanon and specifically to the Lebanese 
armed forces. According to Congress, the goal of funding the 
Lebanese army is so that the army can meet its obligations 
under U.N. Security Council resolution 1701 to disarm 
Hezbollah. According to the administration, the goal of 
supporting the government is to build a free, democratic, U.S.-
oriented governmental institution in Lebanon.
    But by any measure, our policy is failing right now. 
Lebanon's government institutions have disintegrated. The 
ministries that are still running are marked by endemic 
corruption, and Hezbollah has amassed over 100,000 rockets and 
missiles pointed at Israel and regularly moves personnel and 
weapons into Syria. Hezbollah functionally runs major ports and 
parts of Beirut's international airport.
    I have a couple questions I want to ask. Number one, 
Congress has authorized the administration to distribute 
security assistance to the Lebanese armed forces so that they 
can meet their obligations under U.N. Security Council 
resolution 1701 to disarm groups south of the Litani River, by 
which the resolution meant Hezbollah. What percent of our 
security assistance to the army has gone to disarming Hezbollah 
in recent years?
    Mr. Hood. Thank you, Senator, for the question.
    We think that we would disagree with your assessment that 
our policy is failing, especially when it comes to the Lebanese 
armed forces. I think we see that no more starkly than in the 
streets as we speak, where the LAF is regularly getting in 
between Hezbollah thugs and Amal thugs and the peaceful 
protesters and protecting them. We see the people raising their 
voices, Shia for the first time saying, Hezbollah is not what I 
want. I want the Lebanese armed forces. I want something that 
is nonsectarian, non-ideological, pan-Lebanese, something that 
is responsive to our elected leaders and not what we see with 
Hezbollah and its armed wings.
    So I think that we are actually seeing a Lebanese armed 
forces that is coming into its own now vis-a-vis Hezbollah. It 
is a political decision in that country as to whether they want 
to send that army into direct combat with Hezbollah. It is not 
our decision. I can understand, however, that the Lebanese, 
after so many years of bloody civil war want to try to resolve 
this problem as peacefully as they can. They probably 
understand better, as well as anyone, the challenge that they 
face in doing that.
    So our best approach is to make sure that the LAF remains 
strong and becomes even stronger in the face of Hezbollah, 
which is now backed into a corner with its revenues going down 
because Tehran is squeezed for funding, and with the people out 
in the street saying, this is not what we want to see anymore.
    Senator Cruz. I want to make sure I understand your 
testimony. You view and the administration views Lebanon as a 
success story?
    Mr. Hood. We view the Lebanese armed forces and our 
investment in it as a succeeding investment. We are not there 
yet, but it is money that is, so far, well spent. If you look 
back a little over a decade, it was the Syrians that were on 
the border of Lebanon. Now it is the Lebanese armed forces. 
They regularly go into the Beqaa Valley. They conduct 
operations. They do not answer to the orders of Hezbollah. And 
they are growing in their capacity. So I would say that 
investment is a success.
    Senator Cruz. Well, let me go back to my initial question, 
which you did not answer. What percent of our security 
assistance to the army has actually gone to disarming Hezbollah 
in recent years?
    Mr. Hood. Senator, I am not aware that the Lebanese 
Government has directed the armed forces to go and disarm 
Hezbollah. That is a decision for them to make and not for us.
    Senator Cruz. So we do not have any say on what happens 
with Hezbollah? There is no U.S. policy on Hezbollah. Is that 
what you are saying?
    Mr. Hood. There is absolutely a U.S. policy on Hezbollah. 
We are taking every measure that we can to squeeze its funding 
out by our maximum pressure campaign on the regime in Tehran 
and designating individuals and institutions, such as the 
Jammal Trust Bank, that have any role in moving people or money 
on behalf of Hezbollah, and we see that this is having a real 
effect. But the biggest effect----
    Senator Cruz. But am I understanding your testimony 
correctly that right now none of our funds are going to 
disarming Hezbollah?
    Mr. Hood. I would say, Senator, that that is not a decision 
for us to take on behalf of the Lebanese Government, but----
    Senator Cruz. How many billions of dollars have we given 
them? At some point we get to make some decisions when we are 
writing really big checks.
    Mr. Hood. As I was reminded earlier, policy conditions on 
assistance are the domain of Congress. So I will leave that to 
you.
    Senator Cruz. But apparently you are telling me the 
administration's policy is to be agnostic whether they are 
combating Hezbollah, whether they are funding Hezbollah, 
whether they are in bed with Hezbollah. Are you telling me the 
administration has no views? It is just, hey, whatever floats 
your boat?
    Mr. Hood. No, Senator. What I am saying is we think we are 
making strategic investments in this nonsectarian, non-
ideological, highly effective security force and that we need 
to continue doing that because the strategy is working. We have 
got people out in the streets right now saying this is the 
security force we want to see. This is the legitimate face of 
the Lebanese Government, not Hezbollah. And I think that is 
where we all want to be.
    Senator Cruz. What would you say is the role of Hezbollah 
right now within the LAF and within the governmental 
institutions such as they exist in Lebanon?
    Mr. Hood. Senator, I would say the role is they are trying 
to maintain the status quo. They want to maintain a corrupt 
system over which they have great influence so that they can 
use ministries as a source of revenue rather than a way to 
provide services to the people. And so I think that is what the 
people are reacting to and they are saying no more. This is not 
what our government is supposed to be. And I think they would 
like to have influence over the Lebanese armed forces. They are 
not. That is why, in October, you saw the LAF get in front of a 
bunch of Hezbollah thugs on motorcycles and say you are not 
coming in here to terrorize the protesters. We saw it again 
just a couple of weeks ago where they did the same thing. They 
got in between the Hezbollah thugs and the protesters and said 
this is not happening today.
    Senator Cruz. Well, let me be clear on something. You 
referenced our maximum pressure campaign on Iran, and I am a 
vocal proponent of maximum pressure meaning maximum pressure on 
Iran. At the same time and for the same reasons, in Lebanon and 
elsewhere, we should not be funding and we should not be 
supporting people who want to kill us, and Hezbollah falls into 
that camp of people who want to kill us and kill our friends 
and allies. And so let me encourage the administration to focus 
on those core priorities more than I fear you are doing now.
    Mr. Hood. Let me assure you, Senator, that our commitment 
to the security of friends in the Middle East, especially the 
State of Israel, is unshakeable, and we will continue to work 
with them and with others to make sure that the Iranians are 
not able to carry out their agenda without costs anywhere in 
the region.
    Senator Cruz. Senator Murphy?
    Senator Murphy. Thank you very much, Senator Cruz.
    I think we all share in the objective of lessening 
Hezbollah's influence in Lebanon and let me sort of restate in 
a different way a question I asked you earlier. It is the State 
Department's belief that helping to stand up the LAF as an 
independent, nonsectarian guarantor of security in Lebanon is a 
part of our strategy to decrease the influence of Hezbollah 
inside Lebanon.
    Mr. Hood. Yes, sir.
    Senator Murphy. I just have a couple additional questions 
to close out.
    So there was a real sense, when I was on the ground there a 
week ago, that this crisis of leadership could not last much 
longer and that those nations that have typically stood by the 
side of Lebanon--the United States at the top of that list--
needed to play a more active role in trying to help resolve it. 
There were reports you mentioned, literally as you were coming 
in to see us today, that there may be a pending breakthrough, a 
businessman who is being put forward as perhaps the next prime 
minister.
    But what role do you think is appropriate for the United 
States and others to play in trying to help bring an end to 
this moment of political instability? And how confident are you 
that we are on the same page with other international players? 
It obviously worries many of us when we see the President 
departing in a huff from a NATO summit at the way that he was 
treated by the exact allies that we are supposed to be talking 
to about how we land a very difficult political crisis in 
Lebanon. How confident are you that we are working in a 
multilateral way to try to help end this leadership crisis in a 
country that matters so much to our interests?
    Mr. Hood. Senator, I am very confident that we are working 
multilaterally in an effective way. In fact, Assistant 
Secretary Schenker is, right now, on a trip to consult with 
British counterparts. Last week he was in France and Italy 
doing the same thing with counterparts there. And we believe 
that they do share our goal of making sure that whatever 
government comes along next in Lebanon is not just a set of 
pretty faces but is a group that is entirely committed to real 
reform and is backed up by those sectarian leaders and others 
who have influence in the country, whether we like it or not, 
with a real commitment to reform because if they do not have 
that commitment, then it really does not matter who they put in 
what chair.
    But what we are proposing, the way we are trying to help is 
not by saying pick this one and not that one, but by holding 
out that hand and saying we got a $22 trillion economy here. We 
have got a pretty robust assistance budget thanks to the 
Congress. We have got a lot of tools and levers that we can use 
to help a reform-minded government. And so take our hand. Take 
that $11 billion in CEDRE funding. Take the private investments 
that we would be able to advocate for if the environment 
allowed for it.
    Senator Murphy. One last question on Iraq, and I am sorry 
if this ground has been covered. Tell me if it has been. But we 
have spent $5 billion to train Iraqi security forces, and today 
we are spending about 3 or 4 times as much money on security 
assistance as we are in reconstruction, rebuilding, and 
economic aid, which I do not understand. I do not understand 
the justification for that division of funding.
    But we now are seeing reports that it may be that U.S.-
trained units were amongst those involved in the killing of 
around 400 civilian protesters. We need to make sure that our 
dollars are not going to security forces that are firing on 
peaceful protesters. What is being done about accountability 
for the decisions that were made to potentially turn U.S.-
trained and U.S.-funded forces on protesters in Iraq?
    Mr. Hood. I appreciate that question, Senator, because we 
have a full-time staff dedicated to Leahy Law vetting to figure 
out exactly the answer to this question. And that person works 
50-60 hours a week with other colleagues just on this very 
question. I am looking at one of the individuals that has been 
responsible for that right now sitting behind you, John Weadon. 
They do a tremendous job. It is a lot of hard work, a lot of 
slogging through the data, and making important decisions and 
recommendations. This is exactly the kind of oversight and 
policy deliberations I was trying to explain to Senator Kaine 
earlier that we go through for this sort of funding.
    So rest assured we will take it very seriously. We are 
taking it very seriously, and we will make sure, as we have 
done in the past in Iraq and elsewhere, that any unit or leader 
that is implicated in human rights abuses will be barred from 
our assistance through the Leahy Law.
    Senator Murphy. Well, this is a perilous moment, but it is 
a moment that also is flush with opportunity. These are 
protesters who are not seeking to increase the ideological 
divides and separation in the region. They are seeking to unite 
folks around a common set of good governance and economic 
demands. And I think you and those that work with you are doing 
a very, very good job amidst difficult circumstances.
    But one of those circumstances is the person you work for, 
who is sending mixed messages every single day about whether we 
support or do not support these protesters. The idea that the 
President was asked whether we supported the protests in Iran 
and said that he did not want to get into it, but the answer 
was no, only to correct himself an hour later, makes your job 
and others' immensely, immensely difficult and sends a signal 
of mixed policy to the region that ultimately may mean that we 
miss this opportunity to support these, I think, very, very 
promising protest movements.
    But thank you for the good work that you do.
    Thank you, Mr. Chairman.
    Senator Romney. [presiding]: Thank you, Senator Murphy.
    Mr. Hood, I have just got a couple more questions for you.
    One is what Iran's involvement is now with the protests in 
Iraq. I think the modus operandi of Iran in circumstances where 
there is turmoil is to step in and try and provide the, I will 
call it, help, with quotation marks around the word ``help,'' 
that the government might be looking for. They might step in 
and try and take advantage of the circumstance to strengthen 
their hand with the government and to aid in repression of 
violence which they may be helping to stimulate in some 
respects.
    What is our sense of their involvement in these protests 
occurring in Iraq today?
    Mr. Hood. Well, Senator, it is clear that they do not want 
things to change. This setup that they have got in Iraq now, 
where they have got proxy armed groups that also have political 
parties, that also have economic offices--you know, it is a 
pretty good deal for them. But the Iraqi people are standing up 
and saying no. This does not work for me anymore.
    And so as I said earlier, we saw Qassem Soleimani in 
Baghdad just a few days ago meeting with political party 
leaders. This is completely abnormal for the special forces 
commander of some other country to swoop in and be caucusing 
with political party leaders in another country. It is up to 
those party leaders and Iraqis of all stripes to stand up and 
say this does not work for me anymore, and we see a substantial 
number of people doing that on the streets right now at great 
peril to their own lives, as you pointed out.
    So we think that Iran is trying to play its usual role of 
unacceptable influence, but Iraqis are pushing back. And what 
remains to be seen now is how Iraqi leaders will respond to 
that malign influence. So far it does not seem that they are 
entirely getting the message from the street, but we hope that 
they do.
    Senator Romney. Well, given the extent of our financial and 
personnel commitment to their country, you would anticipate 
that we could have some influence about whether or not they are 
going to be influenced by an individual from Iran of that 
nature and indicating to them that that kind of behavior is 
unacceptable, that kind of involvement and participation with 
them is unacceptable to us, and that our continuing support 
relies upon them being an independent nation but not being one 
that is under the thumb of Iran and its most malign influence.
    One more simple question, which is when we were last there, 
we spoke about the fact that Iraq was flaring billions of 
dollars of natural gas a year. Here we are sending billions of 
dollars. They are flaring natural gas worth billions of 
dollars. At that time--this was in May--they said they were at 
the cusp of signing an agreement with a major corporation to 
make the technology investments necessary to capture the value 
of that natural gas. Has that contract been signed, and if not, 
why the heck not?
    Mr. Hood. No, sir, it has not been. And that is exactly our 
question every single day. We continued to get those messages 
right up until the time the prime minister resigned. But the 
fact of the matter is it has not been signed, and we continue 
to push and we would like to see negotiations restarted. The 
fact of the matter is my children breathed the fumes from that 
flared gas just across the border in Kuwait for 5 years. We 
feel it more acutely than probably just about any other 
American. But the real people who suffer here are the Iraqis 
from all that money that is burned off into the atmosphere so 
that they can then purchases electricity from Iran? This is 
nuts. It is like carrying coals to Newcastle.
    So we have got the companies that are ready to do that 
work, and they are ready to do it in a very transparent, non-
corrupt way, which is I think part of why it is a challenge to 
get this thing signed because, up until now, a lot of party 
leaders and their Iranian backers have not wanted to see a non-
corrupt, very transparent deal be put in place for the benefit 
of the Iraqi people. That is not what they are working for. A 
lot of these guys are working for their own benefit and the 
benefit of Iran.
    Senator Romney. It strikes me that the administration has 
been effective from time to time employing our leverage where 
we have it, such as on the Chinese for instance, and saying, 
hey, we got leverage on you. You want access to our markets. We 
are going to put some tariffs on your products to get you to do 
some things that are important to us. That philosophy may want 
to be employed as we deal with Iraqi leadership with regard to 
them solving, whether it is with an American company or some 
other company that has the technology to take advantage of that 
natural gas, to say, guys, we are not going to keep funding at 
this level perhaps or we are not going to keep making the 
investments we are making if you do not get something done on 
this in a hurry. And I would imagine that that would also be 
related to the involvement of Iran and its malign actors in the 
affairs of Iraq.
    Mr. Hood, thank you for being with us today. It is good to 
see you again. I appreciate your perspectives and help.
    And until next time, this hearing is adjourned.
    [Pause.]
    Senator Romney. So let me read the other things I am 
supposed to say at the very end here. So we will open for just 
a moment. I know I have a script, which is in here somewhere. 
There it is. We will get to it. I am supposed to keep the 
record open. There we go.
    Thank you for our witness.
    And for the information of members, the record will remain 
open until the close of business on Friday, including for 
members to submit questions for the record.
    And with the thanks of the committee, the hearing is now 
adjourned again.
    [Whereupon, at 4:05 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


                Response of Hon. Joey Hood to Question 
                     Submitted by Senator Ted Cruz

    Question. Does the State Department assess that it would be in 
America's national security interest to provide money to the Government 
of Lebanon even if that government was controlled or unduly influenced 
by Hezbollah?

    Answer. The U.S. government works assiduously to prevent the use of 
U.S. government funds from benefitting individuals or entities 
associated with terrorist groups, particularly Hezbollah. U.S. foreign 
assistance to Lebanon aims to counter Hezbollah's narrative and 
influence and build the institutions of the Lebanese State. U.S. 
economic aid is not provided directly to the Lebanese government, but 
implemented through NGOs and international organizations. U.S. security 
assistance provides training and equipment to the Lebanese Armed Forces 
and Internal Security Forces to build capable and committed partner 
forces for the United States.

    Question. What percent of U.S. assistance to Lebanon was used for 
activities or operations aimed at disarming Hezbollah in 2019? A rough 
estimate or a range will be sufficient.

    Answer. U.S. military assistance to the LAF does not focus on 
direct disarmament, but rather focuses on developing the LAF as an 
institutional counterweight to Hezbollah's influence and freedom of 
action. Since 2006, the United States has provided over $2 billion in 
security assistance to the LAF and ISF. U.S. assistance to the LAF has 
helped it to increase its ability to act as the exclusive legitimate 
defender of Lebanon's sovereignty, enabling it to defend Lebanon from 
violent extremist organizations, including ISIS.

    Question. What percent of U.S. assistance to Lebanon was used for 
activities or operations aimed at disrupting Hezbollah activities short 
of disarming them in 2019, e.g. through roadblocks? A rough estimate or 
a range will be sufficient.

    Answer. With complementary diplomatic efforts, the entirety of U.S. 
security assistance to Lebanon since 2006 has been an integral part of 
the Department's strategy to support state institutions and security 
agencies in order to bolster stability and counter Hezbollah's malign 
influence in Lebanon and in the region. Over the past several months, 
the LAF has undertaken a series of security actions, including 
maintaining security cordons and roadblocks, that have prevented or 
deterred Hezbollah from intimidating or harming peaceful protesters.

    Question. You testified on December 4 that funding the Lebanese 
Armed Forces (LAF) bolsters American national security because it helps 
to dissolve Hezbollah's narrative that they are the only legitimate 
defender of the people of Lebanon. Please describe: Which parts of 
Hezbollah's narrative have been dissolved due to U.S. assistance since 
2006? Which parts of Hezbollah's narrative remain to be dissolved? 
According to State Department assessments, how much more assistance 
from the U.S. will be necessary to dissolve these remaining parts of 
Hezbollah's narrative?

    Answer. According to a December 2019 GAO Report, the LAF's border 
security and counterterrorism capabilities notably improved from 2013 
to 2018, undercutting Hezbollah's long-standing, disingenuous claim 
that state institutions are not sufficient to protect Lebanon. With the 
support of U.S. training and equipment, the LAF has defeated ISIS in 
Lebanon, reasserted control over Lebanese territory along its border 
with Syria, and increased its presence in southern Lebanon in support 
of UNIFIL. These improvements undercut Hezbollah's unfounded argument 
that its weapons are necessary to protect Lebanon's sovereignty. During 
the recent protests, the LAF helped contain the violence and protect 
protestors.

    Question. You testified on December 4 that the LAF hasn't moved to 
disarm Hezbollah pursuant to their obligations under U.N. Security 
Council resolution 1701 because the Government of Lebanon has not 
directed them to do so. You added that it is a decision for them to 
make. Please describe: Why hasn't the Government ordered the LAF to 
disarm Hezbollah? The degree to which the LAF is under the authority of 
Lebanon's civilian government. The degree to which the LAF is 
independent of Lebanon's civilian government.

    Answer. The LAF's leadership acts to fulfill its mission under the 
guidance of Lebanon's civilian leadership. It is unlikely the LAF, 
which responds to the civilian authorities in Lebanon, would be ordered 
to disarm Hezbollah by force.

    Question. Please describe the degree to which Hezbollah exercises 
influence or control over the Beirut-Rafic Hariri International Airport 
or facilities located within the airport.

    Answer. The United States government is concerned about Hezbollah's 
influence at ports of entry into Lebanon, including at the airport. As 
U.S. Treasury Assistant Secretary Marshall Billingslea stated publicly 
last September, Hezbollah ``engages in a wide range of illicit business 
activities in Lebanon, [that are] well outside the financial sector,'' 
including, he said, ``the abuse of the airport and the seaports.''

    Question. Please describe the degree to which Hezbollah exercises 
influence or control over the Port of Beirut or facilities located 
within the port.

    Answer. The influence Hezbollah exerts over ports of entry remains 
of considerable concern and denies the Lebanese people the benefit of 
customs revenue, significant given the large budget deficits Lebanon 
continue to face. In order to combat Hezbollah's influence, the U.S. 
Department of the Treasury's Office of Foreign Assets Control (OFAC) 
designated under Executive Order 13224 Hezbollah security official 
Wafiq Safa for acting for or on behalf of Hezbollah. As head of 
Hezbollah's security apparatus, Safa exploited Lebanon's ports and 
border crossings to smuggle contraband, facilitate Hezbollah travel, 
and facilitate the passage of illegal drugs and weapons into the 
seaport of Beirut, routing certain shipments to avoid scrutiny.

    Question. Hanin Ghaddar, an expert on Lebanon from The Washington 
Institute for Near East Politics, testified to Congress in November 
that should the U.S. fail to cover the salaries of LAF soldiers, those 
soldiers may be unable to prevent Hezbollah from seizing U.S. weapons: 
Has the State Department conducted an assessment regarding the 
likelihood of such scenarios? What measures has the State Department 
taken to ensure that weapons we've provided to Lebanon do not fall into 
Hezbollah's hands, whether or not we pay for LAF salaries? Have you 
briefed the relevant committees of jurisdiction on those contingencies, 
and if so, at what level?

    Answer. The Department of State and USAID work assiduously to 
prevent the use of U.S. government funds from benefitting individuals 
or entities associated with terrorist groups, particularly Hezbollah. 
The LAF places a high priority on maintaining its exemplary track 
record with U.S. government-provided equipment and fully complies with 
end-use monitoring requirements that mitigate the risk of any 
assistance being diverted to Hezbollah. We assess that given the LAF's 
strong track record, it will continue to execute its mandate 
effectively.

    Question. How many operations against ISIS did the LAF conduct in 
2019?

    Answer. In 2019, the Lebanese Armed Forces (LAF) facilitated the 
arrests of approximately 25 individuals associated with ISIS, including 
individuals who carried out terrorist attacks in Lebanon and those 
planning attacks. The Department can provide more detailed information 
on LAF operations in a classified setting.
                               __________

                  Amer Fakhoury's Legal Team Document 
                  Submitted by Senator Jeanne Shaheen

             Amer Fakhoury: A Gravely Ill American Citizen 
                     Illegally Detained in Lebanon

(Information Compiled by the Legal Team of Amer Fakhoury)

    Amer Fakhoury is an American citizen who, in contravention of 
Lebanese and international law, has been detained without charges in 
Lebanon since September 12, 2019. He is gravely ill and requires urgent 
medical treatment in the United States. His family, lawyers, and the 
U.S. Government are urging the Lebanese Government to release him on 
humanitarian grounds.
                               background
    Amer grew up in Marjeyoun, in the south of Lebanon. In 1983, he 
joined the Southern Lebanese Army (SLA). He was assigned to Khiam 
Prison from 1989 to 1996. He was never involved in the interrogation or 
torture of prisoners. In 1996 he left the SLA, after advocating for an 
end to the occupation. He started a building materials business. When 
the occupation ended in May of 2000, those who had served with the SLA, 
including Amer, received credible death threats. Amer fled Lebanon, 
through Israel, for his safety as well as the safety of his family--
eventually settling in the United States. He traveled on ``laissez-
passer'' documents. He never held an Israeli passport. After arriving 
in the United States, Amer did not cross the Atlantic until he returned 
to Lebanon in September of 2019. Amer is a United States citizen.
      prior to his arrival in lebanon in september, there were no 
           pending cases, charges or accusations against amer
    Over the last three decades Khiam prison and the SLA have been 
investigated and documented exhaustively by journalists, international 
organizations, NGOs, political groups, and agencies of the Lebanese 
Government. In 2018, a 1996 collaboration charge and conviction against 
Amer officially was dismissed under Article 163 of the Lebanese penal 
code. As such, under Lebanese law, he cannot be charged with this crime 
again. Despite all of the investigations and the coverage of Khiam 
Prison, no other charges or accusations, official or unofficial, were 
lodged against Amer.
    In fact, in August of 2018, Amer received official acknowledgement, 
in writing, that there were no accusations against him in Lebanon from: 
1) the Military Tribunal; 2) the General Directorate of General 
Security and the Ministry of Justice; 3) the Internal Security Forces 
in the form of Attestation of no Legal Pursuits; and 4) the Internal 
Security Forces in the form of the standard Record of No Conviction.
    In September 2018, Amer met a senior official of the Ministry of 
Foreign Affairs \1\ at an event at the Our Lady of the Cedars of 
Lebanon Church in Boston, Massachusetts. Amer told this official about 
his background, and that he had received legal clearance from the 
Lebanese Government. The official told Amer to send his complete file 
to the embassy and that he would have his subordinates check to assure 
that there were no matters that might preclude his return. He 
encouraged Amer to come back to Lebanon. Amer then received assurances 
from Lebanese government officials that there were no legal matters 
that might interfere with his return.
    Based on the official documents and assurances from Lebanese 
officials, Amer returned to Lebanon for a brief visit on September 4. 
His passport was seized at the airport. A week later, on September 12, 
an article appeared in Al Akhbar newspaper. This article contained a 
series of new and false accusations, including that Amer was called 
``the Butcher of Khiam'' and that he was guilty of torture and murder. 
On the same day the al Akhbar article appeared, Amer was arrested. 
Certain outlets in the Lebanese media have subsequently smeared Amer 
and accused him of taking part in a number of crimes. These allegations 
are patently false. Some of the allegations contained in these reports 
occurred during a period when Amer was not at the Khiam prison 
barracks.\2\ Others are alleged to have taken place in locations other 
than Khiam \3\ and have been attributed until now to other men.\4\ 
Finally, some of these false reports contain accusations from 
individuals who have written extensively of their experiences in Khiam 
without ever before accusing Amer of any crimes or abuse.\5\
      amer is being held without bond presumably for accusations 
        that cannot possibly lead to charges under lebanese law
    Amer has been unable to obtain appropriate due process before the 
Military Tribunal. The accusations against him are for alleged crimes 
that are more than two decades old, well outside the maximum non-
tolling 10-year statute of limitations, and yet he remains uncharged, 
and incarcerated without bond.\6\
    The U.S. Government as well as Amer's lawyers have spoken with 
Lebanese officials at the highest levels. These officials freely admit 
that ``the file is empty,'' and that Amer received legitimate and 
official legal clearance before traveling to Lebanon citing that under 
Lebanese law ``there can be no legal charges against him.'' Yet, Amer 
remains in custody, without charges and with limited time to seek 
adequate medical attention to treat his life-threatening illness.
                  amer's medical situation is critical
    Amer's medical condition has deteriorated throughout his time in 
custody. Amer arrived in Lebanon in good health. During his initial 
interrogation by Lebanese General Security officials he sustained 
multiple injuries, including rib fractures. Since then his condition 
has rapidly deteriorated. Two months after his initial arrest, Amer has 
experienced: a bacterial infection; enlarged lymph nodes; an enlarged 
spleen; splenopathy; coagulopathy (bleeding disorder); polyps in the 
stomach; abdominal cysts; pancytopenia, low WBC, RBC, and platelets 
(indicative of bleeding); blood in stool; gastric and large intestinal 
issues (the probable source of bleeding); rib fractures; abnormal liver 
tests; bone pain; 40 pound weight loss; night sweats; and coughing up 
blood. While incarcerated, he developed what doctors believe is a very 
aggressive form of lymphoma. In the past 2 weeks it has moved from his 
abdomen to his neck.\7\ It is medically and physically evident that 
Amer Fakhoury could die in Lebanese custody, or, if he is not released 
soon, the lymphoma could spread to the point that it will be 
untreatable even once he is released.

----------------
Notes

    \1\ The identity of this official is known and confirmed and has 
been relayed to the U.S. Government.
    \2\ Despite the fact that Amer did not work at Khiam at the time, 
Amer is accused in the 1986 death of Ali Abdullah Hamzeh.
    \3\ Anwar Yassine was imprisoned at Swareem prison in Israel from 
1987 and then he was transferred to Bitah Tekfa, a prison also in 
Israel. (Alsafeer Article dated May 1, 2003 at bintjbeil.com); Nabih 
Awada was arrested in September 1988 and was imprisoned at Tabraya 
Prison and Askalan Prison. (elwatannews.com, article dated April 17, 
2016); Ahmad Taleb stated in an article in alahednews.com that the 
Lebanese Forces (militia) arrested him on a ship at Jounieh Port and 
tortured him for 2 years, and then he was transferred to prison in 
Israel (elwatannews.com).
    \4\ Accuser Souha Bechara wrote a book called Resistance; my life 
for Lebanon. In it she documents her treatment at Khiam prison and 
names other men. She never mentions Amer Fakhoury, but mentions an 
``Amer'' who attended a Red Cross visit with her.
    \5\ Id.
    \6\ During questioning and in discussion with Fakhoury's attorneys, 
the investigative judge raised possible legal issues surrounding the 
possession of an Israeli passport, which may, according to him, 
indicate ongoing collaboration. There has been no evidence presented 
against Amer on these issues, and no charges. A review of official 
United States State Department documents, produced by Amer's defense, 
show that he has not held an Israeli passport and has not travelled 
overseas for over 20 years.
    \7\ His family recently was allowed to employ private doctors to 
attempt to stabilize him and perform surgery on his neck. They are 
awaiting pathology reports on the removed lymph nodes and a biopsy on a 
bone in his leg.

                                  <all>
</pre></body></html>
